<html>
<title> - INNOCENCE FOR SALE: DOMESTIC MINOR SEX TRAFFICKING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          INNOCENCE FOR SALE: 
                     DOMESTIC MINOR SEX TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 26, 2014

                               __________

                           Serial No. 113-80

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-330                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3f584f507f5c4a4c4b575a534f115c505211">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

Subcommittee on Crime, Terrorism, Homeland Security, and Investigations

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman

                  LOUIE GOHMERT, Texas, Vice-Chairman

HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
SPENCER BACHUS, Alabama              Virginia
J. RANDY FORBES, Virginia            PEDRO R. PIERLUISI, Puerto Rico
TRENT FRANKS, Arizona                JUDY CHU, California
JASON CHAFFETZ, Utah                 LUIS V. GUTIERREZ, Illinois
TREY GOWDY, South Carolina           KAREN BASS, California
RAUL LABRADOR, Idaho                 CEDRIC RICHMOND, Louisiana

                     Caroline Lynch, Chief Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 26, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Chairman, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     1
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations.................................................     2
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5

                               WITNESSES

Michael T. Harpster, Acting Deputy Assistant Director, Criminal 
  Investigative Division, Branch 1, Federal Bureau of 
  Investigation
  Oral Testimony.................................................     8
  Prepared Statement.............................................    10
Withelma ``T'' Ortiz Walker Pettigrew, Human Rights Project for 
  Girls
  Oral Testimony.................................................    16
  Prepared Statement.............................................    19
Christopher Heid, Corporal, Child Recovery Unit, Maryland State 
  Police
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
The Honorable Donna Quigley Groman, Supervising Judge, Kenyon 
  Juvenile Justice Center, Los Angeles County Juvenile 
  Delinquency Court
  Oral Testimony.................................................    29
  Prepared Statement.............................................    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     5

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of Tina Frundt, Founder, Courtney's House.....    54


                          INNOCENCE FOR SALE: 
                     DOMESTIC MINOR SEX TRAFFICKING

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
2141, Rayburn Office Building, the Honorable F. James 
Sensenbrenner, Jr. (Chairman of the Subcommittee) presiding.
    Present: Representatives Sensenbrenner, Goodlatte, Gohmert, 
Coble, Bachus, Forbes, Scott, Conyers, and Bass.
    Also Present: Representatives Poe and Jackson Lee.
    Staff present: (Majority) Allison Halataei, Parliamentarian 
& General Counsel; Sarah Allen, Counsel; Alicia Church, Clerk; 
and (Minority) Ron LeGrand, Counsel.
    Mr. Sensenbrenner. The Subcommittee will come to order. 
Before making an opening statement, let me reiterate the 
position of the Chairman and the Committee about non-
Subcommittee Member participation, which is as follows.
    A Judiciary Committee Member who is not a Member of a 
Subcommittee may attend a hearing and sit on the dais. That 
Member may also ask questions of the witnesses, but only if 
yielded time by a Member of the Subcommittee who is present at 
the hearing. It will remain the policy of the Committee that we 
do not allow Members to participate in our hearings if they are 
not Members of the full Judiciary Committee.
    Without objection, the gentleman from Texas, Mr. Poe, and 
the gentlewoman from Texas, Ms. Jackson Lee, will be permitted 
to sit on the dais for this hearing and may ask questions of 
the witnesses if yielded time by a Member of the Subcommittee. 
And without objection, so ordered.
    I yield myself 5 minutes.
    We are honored today to have a varied and distinguished 
panel of witnesses here to discuss a difficult, but critically 
important, topic, the growing crisis of minor sex trafficking 
in the United States. Now, let me say that this is something I 
do not think has received enough congressional and public 
attention. There is a study that has been done by the FBI that 
says that over 290,000 American youth are at risk of becoming 
victims of sex trafficking, and that includes one out of seven 
runaways from home.
    These kids, and I will call them kids, are usually between 
12 and 14 years, and what is happening here is that their 
innocence is being bought and sold for the profit of criminals. 
And it is something that we have to get public attention to, 
that we need to legislate more strictly and firmly against. And 
law enforcement has to be given more tools to be able to track 
down those who are responsible for this heinous and disgusting 
crime, prosecute them, and to put them behind bars.
    Now, as a result of technology advances, the growth of the 
Internet and mobile smart phones have greatly facilitated 
people who want to perpetrate these crimes. So using the 
Internet for law enforcement purposes I think is absolutely 
essential. There have been online advertisements as the primary 
platform for buying and selling sex with minors, and there have 
been almost 3,000 minor victims that were advertised online for 
this disgusting practice. That, too, has to stop, and those who 
put these advertisements online have got to be prosecuted.
    Online advertisements for prostitution have created about 
$45 million of revenue last year, you know, again revenue used 
in the furtherance of a crime and in the furtherance of selling 
the innocence of minors for a profit. And I hope that Ms. 
Pettigrew, who is a survivor of this crime, who has 
courageously dedicated herself to shining a light on this dark 
issue, she can help us better understand the unique needs of 
minor victims of sex trafficking because not only do we have to 
go after those who perpetrate the crime, but we have to give 
all the counseling that is necessary to bring the victims back 
to being able to live a normal, functional, and productive 
lifestyle.
    So this is really an important hearing. It is something 
that I think that the Subcommittee should devote much of its 
time and energy to for the rest of this Congress.
    And it is now my pleasure to recognize for his opening 
statement the Ranking Member, Mr. Scott of Virginia.
    Mr. Scott. Thank you, Mr. Chairman, and thank you for 
convening this hearing. While many Americans know that children 
are sold for sex overseas, too many believe that our country is 
immune. There remains a tragic reality and growing problem here 
as well. We must understand the term ``domestic minor sex 
trafficking'' is the commercial exploitation of children 
through prostitution, pornography, and sexual performance. It 
is the sex slavery and rape of children for profit.
    In its 2006 report, Shared Hope International reminded us 
that the status of a sex trafficked child is that of a victim, 
not a criminal. We are talking about some of the most 
vulnerable, the traumatized, exploited children in need of 
specialized services and understanding. We need to train law 
enforcement officials to correctly identify the trafficked 
children as victims and treat them accordingly. Categorizing 
sex trafficked children as criminals prevents them from 
receiving the care they need and re-victimizes them by 
arresting and charging them for criminal acts done against 
their will. It also complicates the prosecution of the real 
criminals, the pimps and johns.
    A victim-centric approach is essential to properly crafting 
the delivery of services for survivors of sex trafficking. 
Nationally, an estimated 450,000 children run away from home 
every year, and it is estimated that one out of three teens on 
the street will be lured toward prostitution within 48 hours of 
leaving home. This means that statistically, about 150,000 
children are lured into prostitution each year, and some 
estimates put that number closer to 300,000.
    These children come from all races, ethnic groups, and 
religious backgrounds. They span all gender identities, ages, 
and socioeconomic classes, and they come from abusive 
households. One study found that almost 60 percent of minors 
arrested for prostitution in Las Vegas had been molested by 
family members or were victims of sexual assault, and three-
fourths had run away from home prior to arrest.
    The trafficked children are often exposed to many immediate 
and long-term harms, including violence and intimidation, 
homelessness, addiction to drugs, unplanned pregnancy, impaired 
health and life span, decreased lifetime earnings, and welfare 
dependency. These harms come at a cost to the State and local 
governments, which increases the length of time an individual 
is exploited by sex traffickers.
    Four years ago, this Subcommittee held hearings on this 
very issue. Now, 4 years later, the need for a comprehensive 
victim-centric approach to dealing with sex trafficking of 
children remains. Survivors of these heinous crimes need 
shelter and rehabilitative services tailored to their unique 
needs.
    Of more than 2,200 children trafficked annually in New York 
City, only 20 beds exist to shelter the survivors. And we need 
to increase funding for a national crime information center so 
we can improve the database on missing and exploited children.
    More importantly, we need to do more to rescue these 
children in the first place. Since its inception more than 10 
years ago, the FBI's Innocence Lost Initiative has rescued more 
than 3,100 child victims and initiated about 2,100 cases 
resulting in 1,400 convictions of sex traffickers. Now, let us 
put that in perspective. That is 31 children rescued over a 10-
year period compared to an estimated 150,000 to 300,000 victims 
added every year. I commend the FBI and its partners and the 
U.S. Department of Justice and the Center for Missing and 
Exploited Children for their rescue efforts. However, this gap 
remains too large. I am hoping that our witness from the FBI 
will be able to tell us what is needed to increase the number 
of rescues.
    Now, representatives from Craigslist testified at a 
previous hearing about the company's decision to remove its 
adult services section. At that time, we understand that the 
real issue was not Craigslist, but rather the issue was and 
still is the extent of the Internet's role in facilitating the 
sex trafficking of children.
    What we have learned is much like drug trafficking, when 
one kingpin falls, another is standing in the wings waiting to 
take over. And such has been the case with the Internet. 
Craigslist removal of adult services only made it easier for 
other sites to facilitate sex trafficking.
    Some argue that legislation would curtail or otherwise 
limit such websites' ability to promote these services, but we 
can and must take more immediate action. We can certainly 
enforce the laws that are already on the books to prosecute sex 
traffickers and johns. We also need to improve underlying 
social conditions so children do not become victims in the 
first place. Among other things, we can do this by educating 
parents about the dangers of Internet predators, and we can 
help rescued children to get their lives back by providing them 
with safe housing, schooling, physical and mental health 
services, and, if appropriate, reuniting them with their 
families.
    Human trafficking is the second fastest-growing criminal 
industry in the world, and the United States has a real 
opportunity to lead the way against domestic minor sex 
trafficking through a comprehensive victim-centric approach on 
the issue. Societal costs of the domestic sex trafficking 
industry is too great to be ignored.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Sensenbrenner. The Chair now recognizes the Chair of 
the full Committee, the gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. I am very pleased 
to take part in this important hearing on the growing scourge 
of sex trafficking of minors in the United States. When 
criminals exploit children for their own financial gain or 
personal pleasure, they rob them of their innocence and destroy 
their childhood. Pimps and the adults who purchase these 
services, both more accurately referred to as traffickers, 
sexually exploit children through street prostitution and in 
adult strip clubs, brothels, hotel rooms, and other locations.
    It goes without saying that no child should be subjected to 
this horrifying and inhumane violence. Sadly, it happens across 
the country every single day. The demand for the prostitution 
of children and other forms of commercial sexual exploitation 
of minors is steadily growing. While some traffickers are 
individuals working for themselves, minor sex trafficking is 
more often perpetrated by broader criminal syndicates or gangs 
that have realized it is more profitable to prostitute a child 
than to commit other crimes. For example, drugs can only be 
sold once, whereas minor children can be sold multiple times 
each day. Because of this growth, it is estimated that human 
trafficking in the United States is now a $9.8 billion 
industry. We must work together to put this detestable industry 
out of business.
    We have a distinguished panel of witnesses here today to 
discuss this difficult subject. I hope to hear about some of 
the recent successes in this area. For example, just this 
February, the FBI worked with State and local law enforcement 
to arrest more than 45 traffickers in a sting operation at the 
Super Bowl. Even more importantly, this operation rescued 16 
juveniles, some as young as 13 years old. I commend everyone 
involved in this endeavor.
    I also hope to hear from our witnesses about what Congress 
and the States can do to help further combat this crime. I am 
particularly interested in hearing about how Federal law 
enforcement can better address the online facilitation of minor 
sex trafficking which has helped to fuel this crime in recent 
years. I also hope to hear about how the various States handle 
minor victims, including whether and why victims are often 
treated as criminals themselves, and how the States ensure that 
victims receive the critical services they need to move on from 
their trauma.
    Congress has passed a number of bills to address the crisis 
of minor sex trafficking in the United States, but our work 
clearly is not done. This hearing will help us determine what 
more can be done to end these terrible crimes, and I thank all 
of you for being here today, and look forward to hearing from 
our witnesses. And I yield back to the Chairman.
    Mr. Sensenbrenner. The Chair now recognizes for an opening 
statement the Chairman emeritus of the full Committee, the 
gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, former Chairman Sensenbrenner. I 
just join in welcoming the witnesses, particularly Ms. 
Pettigrew with the Human Rights Project for Girls.
    Victims, not criminals. Customers should be prosecuted. 
Services for victims not sufficient. We held a hearing similar 
to this 4 years ago, and so we are confronted with new 
legislation, enforcement of existing laws. And, of course, the 
traditional strategy is on the victims and not on the 
customers, and that Judge Poe of Texas has a bill that I think 
may help us in that regard.
    There also is the aspect of many of those exploiting 
children have them commit other crimes involving drugs, and 
robbery, and other criminal activities. And so, this is a 
hearing that I think we can get to the bottom of this. It is 
great to have Judge Groman with us today, too, because she is 
working with us on a daily basis.
    I will put the rest of my statement in the record and yield 
back my time.
    Mr. Sensenbrenner. Without objection. Without objection, 
all Members' opening statements will be put in the record.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
 in Congress from the State of Michigan, and Ranking Member, Committee 
                            on the Judiciary

    Today's hearing examines the growing epidemic of minor sex 
trafficking, an absolutely abhorrent practice, that each year entraps 
more than 100,000 minors--roughly between the age 12 and 14--into 
prostitution or child pornography.
    Although these children come from all socio-economic classes, 
races, and genders, they all share in common their vulnerability.
    As we begin our focus on this issue, it must be recognized that 
these children are victims; they are not criminals, and they should not 
be treated so.
    Predators seize upon the insecurities and weakness of these 
children, whether they are runaways and shelter youth, kids in foster 
care, or just ``throwaways'' who have been emotionally and 
psychologically neglected their whole lives.
    As such, they are particularly vulnerable to pimps, predators, and 
sex traffickers through violence, coercion, and fraud.
    And, when children who have fallen prey to the sex trade are 
treated as criminals rather than victims, this just further compounds 
their injuries.
    They become very afraid to seek help, particularly from law 
enforcement because of the risk that they will be treated as criminals 
rather than victims.
    Instead of criminalizing what these children do, we must ensure 
that they are recognized for what they: victims.
    Second, much more needs to be done to improve how we assist these 
horribly exploited children.
    They are physically traumatized, often being sold for 10 to 15 sex 
acts per night. One child may be raped more than 5,000 times in a 
single year.
    The extent of the resultant emotional and psychological trauma they 
endure is hard to fathom.
    These victims--in order to regain their lives--must receive 
specialized counseling, educational services, and housing to ensure 
their physical and mental rehabilitation.
    Without these specialized programs, these young boys and girls 
often run away to return back to their abusers because of the unique 
trauma bonding that occurs between the victim and the trafficker.
    Yet, there are far too few shelter beds available nationwide to 
provide for the unique needs of children crushed by the commercial sex 
trade.
    We owe it to these youngsters and to our society to help them 
overcome the horrors that they have been put through.
    Lastly, we must consider how technology and the Internet have 
enabled the minor sex trafficking business and what this industry can 
do to help law enforcement stop this crime.
    After our last hearing on minor sex trafficking in 2010, Craigslist 
shut down its ``adult services'' section, which was a primary source of 
online advertising for the commercial sex trade for both adults and 
minors.
    However, this may have been a Pyrrhic victory. Online sex 
trafficking has continued, but now in a more dispersed fashion.
    For example, Backpage.com has roughly 70% of the market share of 
Internet advertising for the sex trade.
    It is critical that effective ways for law enforcement to 
collaborate with these companies be developed so that the perpetrators 
of these heinous crimes are ultimately brought to justice.
    We must also consider how to rein in the use of decentralized 
advertising and foreign-based entities that increasingly disseminate 
this advertising.
    And, we must also explore how to better educate minors to avoid 
online predators. More than ever, pimps and traffickers are using 
social networking sites to coerce and cajole vulnerable children into 
the sex trade by preying on their insecurities.
    To conclude, I hope that this will be the beginning of a larger 
discussion that will include human trafficking and labor trafficking.
    For now, however, I am sure that we can come together in a 
bipartisan manner to address the evils of juvenile sex trafficking and 
to find ways that will improve the lives of the far too many children 
who have already been exploited.
    We have addressed similar issues in the past, and we should look to 
such legislation for guidance. For instance, we should consider 
effectuating a national standard of care for victims of juvenile sex 
trafficking, just as past Congresses have for victims of domestic abuse 
and sexual assault, to ensure that the these youths receive proper 
care.
    Portions of Mr. Poe's bill will also serve this cause well, as it 
recognizes the need to greatly improve services to children affected by 
the scourge of sex trafficking by setting up a revenue neutral fund to 
provide them aid and creates block grants for sex trafficking 
deterrence.
    We should also take steps to curb demand by assisting state and 
local agencies enforce laws that are already on the books when it comes 
to dealing with ``johns'' who patronize minors, as this is a key 
component in fighting the exploitation of minors. However, we must be 
careful in creating new federal laws and mandatory minimums in this 
area, as new federal mandatory minimums for ``johns'' may lead to 
unintended consequences.
    Tomorrow, the Task Force on Over-Criminalization will be holding a 
hearing on the over-federalization of criminal laws, and this is just 
such an instance where state laws that are in place may be just as, or 
even more effective, in combating demand when they are enforced than a 
new federal mandatory minimum.
    I know that we can work together to bring an end to the evils of 
juvenile sex trafficking, and I look forward to hearing the testimony 
of our witnesses.
                               __________

    Mr. Sensenbrenner. And without objection, the Chair will be 
authorized to declare recesses of the Subcommittee during votes 
in the House.
    It is now my pleasure to introduce our witnesses today. Mr. 
Michael Harpster is the acting deputy assistant director for 
Criminal Investigation Division Branch 1 of the FBI. In this 
position, Mr. Harpster leads one of the largest and most active 
branches in the FBI, which includes crimes against children, 
the transnational organized crime east and west sections, and 
the violent criminal threat section.
    Prior to being appointed as acting deputy assistant 
director, Mr. Harpster worked at FBI headquarters as section 
chief of the Violent Crimes Against Children Section. He has 
had program management responsibility for 69 child exploitation 
task forces, and all matters related to crimes against children 
in all of the FBI field offices.
    He earned his bachelor of science degree in criminal 
justice and his master's degree in public administration from 
Northeastern University.
    Ms. Withelma T. Ortiz Walker Pettigrew is a second-year 
student at Trinity Washington University. She currently serves 
on the National Foster Care Youth and Alumni Policy Council and 
is a member of the board of directors for the Human Rights 
Project for Girls. From the ages of 10 to 17, Ms. Ortiz Walker 
Pettigrew survived being subjected to criminal sexual 
exploitation in the United States. She now uses her experience 
to teach, lead, and educate on needed reforms to address minor 
sex trafficking, including in the child welfare, juvenile 
justice, and mental health systems.
    She is a daily mentor to other young people who have 
similarly been forced into this modern day form of slavery. In 
2013, Ms. Ortiz Walker Pettigrew was listed as one of Time 
magazine's 30 people under 30 changing the world. She has 
lectured at many venues, and has shared her story at a national 
level as one of Glamour magazine's 2011 women of the year. Most 
recently, she has trained law enforcement in conjunction with 
the National Center for Missing and Exploited Children, and has 
contributed in the launch of the U.S. Senate Caucus to Combat 
Human Trafficking.
    Corporal Chris Heid is a corporal with the Maryland State 
Police, who has been assigned to the Child Recovery Unit for 
the last 3 years. This unit investigates critically missing 
children, issues amber alerts, and investigates human 
trafficking primarily as it relates to juveniles. He is also a 
member of the FBI's Child Exploitation Task Force. He has been 
a member of the Maryland State Police for 20 years and has held 
a variety of assignments, including road patrol and other 
investigative positions. He is based out of Columbia, Maryland.
    The Honorable Donna Quigley Groman is the supervising judge 
of the Kenyon Juvenile Justice Center for the Los Angeles 
County Juvenile Delinquency Court. She has served as a lawyer 
and a judge in the field of juvenile law for approximately 28 
years.
    Judge Groman is active in judicial education and serves as 
faculty to the Center for Judicial Education and Research in 
California, teaching juvenile delinquency law and related 
topics through judges statewide. She has worked on issues 
related to domestic minor sex trafficking, successful re-entry 
from probation facilities, reducing the school to prison 
pipeline, and school discipline.
    She earned her bachelor's degree in economics from SUNY-
Stony Brook and her juris doctorate from the American 
University Washington College of Law.
    The witnesses' written testimony will be entered in the 
record in its entirety without objection. I ask that the 
witnesses summarize his or her testimony in 5 minutes or less. 
You will see the green, yellow, and red lights in front of you. 
I think you all know what they mean.
    So I would like to recognize Mr. Harpster first. Mr. 
Harpster, the floor is yours.

   TESTIMONY OF MICHAEL T. HARPSTER, ACTING DEPUTY ASSISTANT 
 DIRECTOR, CRIMINAL INVESTIGATIVE DIVISION, BRANCH 1, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Harpster. Good morning, Chairman Sensenbrenner, Ranking 
Member Scott, distinguished Members of the Subcommittee. I am 
pleased to be here with you today to discuss the Federal Bureau 
of Investigation's efforts to combat child sex trafficking.
    It is nearly unthinkable, but every year thousands of 
children become victims of crime, whether it be sexual 
exploitation by prostitution on the Internet, or kidnapping, 
violent acts, and sexual abuse. Over the last several years, 
the FBI, State and local law enforcement, and the public have 
become more informed about the methods used to exploit 
children, and the vulnerabilities the perpetrators seek out. 
More incidents of these crimes are being reported than ever 
before, and technology has greatly improved law enforcement's 
ability to identify those who exploit our children.
    Between 1996 and December 2013, the number of child 
exploitation cases opened throughout the FBI increased 
substantially from just over 100 to more than 7,000. To combat 
this threat, the FBI's Violent Crimes Against Children Program 
utilizes a victim-centered and intelligence driven 
investigative model.
    Our strategy involves using multidisciplinary teams to 
investigate and prosecute crimes that cross legal, 
geographical, and jurisdictional boundaries. Through the FBI's 
69 child exploitation task forces, task force members employ 
strong partnerships between law enforcement, social service 
agencies, and non-profit organizations in order to gather the 
local intelligence needed to identify national level 
enterprises responsible for the exploitation of child victims.
    This year marks the 11th anniversary of the FBI's most 
prominent initiative established to address sex trafficking of 
children within the United States. Through the Innocence Lost 
National Initiative, the FBI, working with nearly 400 partner 
agencies, designs enforcement operations specifically to 
identify and recover child victims. To date, these operations 
have resulted in over 2,100 cases, 1,400 convictions, and the 
recovery of 3,100 children.
    These victims come from all socioeconomic backgrounds and 
are often targeted because of individual vulnerabilities. In 
some cases, these vulnerabilities are not easily apparent to 
others. In many cases, though, victims live within an abusive 
or troubled family dynamic. Some come from families with very 
limited resources, are runaways, or are foster youth, or those 
within the juvenile justice system. In the hands of their 
traffickers, these individuals will be subject to numerous 
sexual assaults and continued abuse.
    It is important to note the FBI does more than investigate 
those who exploit victims of trafficking. The FBI's Office for 
Victim Assistance along with victim specialists from the United 
States attorney's offices and other non-government victim 
assistance service providers are involved in all stages of the 
coordination and execution of our enforcement operation in an 
effort to address the immediate and long-term needs of these 
victims.
    In addition to our domestic operations, the FBI coordinates 
the Violent Crimes Against Children International Task Force. 
It is a select cadre of international law enforcement experts 
working together to formulate and deliver a dynamic global 
response to incidents of child exploitation through the 
establishment and furtherance of strategic partnerships, the 
aggressive engagement of relevant law enforcement, and the 
extensive use of liaison operational support and coordination.
    Through this task force, we are working closely with our 
global partners to reduce the vulnerability of children to acts 
of sexual exploitation and abuse, which are facilitated through 
the use of computers, identify and rescue child victims, 
investigate and prosecute sexual predators who use the Internet 
and other online services to sexually exploit children, 
regardless of their geographical location.
    The FBI's effort to combat child sex trafficking represents 
a multi-faceted approach to a multi-faceted problem. As a 
result, our efforts span from investigation to prosecution and 
are supplemented by an array of investigative training, 
outreach, and victim services carried out by a wide range of 
components. Simply put, we are proud of the work we do in this 
area and look forward to continuing to have a leading role in 
the government-wide fight against child sex trafficking.
    Thank you again for the opportunity to testify. I will now 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Harpster follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                               __________
    Mr. Sensenbrenner. Thank you very much, Mr. Harpster.
    Ms. Ortiz Walker Pettigrew?

   TESTIMONY OF WITHELMA ``T'' ORTIZ WALKER PETTIGREW, HUMAN 
                    RIGHTS PROJECT FOR GIRLS

    Ms. Ortiz Walker Pettigrew. I want to say thank you so 
much, Chairman, and to the Subcommittee and the members of the 
audience for allowing me to be here today.
    Suffering, isolated, helpless and tired, at the age of 15, 
the concrete box that represented myself in Zenoff Hall, the 
largest juvenile facility in Las Vegas, Nevada seemed no less 
invasive than the horror of the streets. As much of a real 
physical confinement that it was, it was not all too different 
than the mental confinement that I endured from my pimp. I was 
interrogated for hours on end, reminded that my opinions did 
not matter, and locked in like a dog in a kennel. Unless I was 
saying the answers to the questions that they wanted to hear, 
my voice was irrelevant. Skip ahead a few years later, I spent 
my 17th birthday within the juvenile walls in the State of 
California.
    Both times I was faced with charges of solicitation and/or 
prostitution, a crime that as a minor who was not of legal age 
to consent to sex, could not seriously be charged to commit. 
But yet, there I was facing them. I comprehended this as yet 
another system that failed me. This became familiar as I was 
raised experiencing most of my life in the foster care system, 
which is where I learned to accept and normalized being used as 
an object of financial gain by people who were supposed to love 
and care for me, got used to various people controlling my 
life, and lacked opportunities to gain meaningful relationships 
and attachments. No one cared and no paid much attention, so I 
was considered a problem child with multiple moves and 
histories of sexual abuse.
    At the age of 10 years old, after enduring multiple years 
of various types of abuse within the system, my vulnerabilities 
made me a target for a devious man, my exploiter, trafficker, 
or otherwise known as pimp, to sexually exploit me starting on 
the streets, then the Internet, and ultimately anywhere. After 
being repeatedly beaten, tortured, and manipulated, I became 
more afraid of him than any other human being on this planet. 
So any time I came in contact with law enforcement, I knew I 
had to protect him to protect myself. Plus, every time I 
encountered law enforcement, I was treated like I was the 
criminal.
    While in detention, I was so hurt and baffled that I was 
the one who was locked up. It seemed like they always wanted to 
detain me and my pimp, both people of color, instead of 
focusing on the buyers who were adults and primarily White. No 
one seemed to care about them. It hurt that even when I 
released, I knew the cycle would continue because buyers were 
always going to get what they wanted, and they would get to 
walk away. Some of them would even pay more knowing I was an 
adolescent.
    I endured years of sexual trauma and humiliation from all 
points, including the buyers and johns. And then I was re-
traumatized every day in detention while having to be watched 
naked while I showered. No one ever assessed me or even asked 
me what got me there, and there were no rehabilitation services 
offered. I just sat locked in a box being interrogated and 
talked down to.
    Many of the young people I mentor and have advocated on 
behalf of have dealt with situations like the one I have 
expressed. Many have transitioned between and intersected 
throughout systems, primarily the child welfare, mental health, 
and juvenile justice systems. One young survivor explained to 
me in her words, ``I don't feel good about any time I came in 
contact with law enforcement.'' She echoes, ``They treated me 
like a criminal and used their authority and superiority to 
look down upon me. The way they talked about me was degrading, 
as if they felt that they were so much better, and they didn't 
even know my situation.''
    She tells me about the first day that she went on lockdown. 
``They wanted me to cut my hair, and that was the one thing 
that my pimp did let me have.'' She said, ``I hated the way the 
staff treated and talked to me, like I was a penitentiary 
prisoner when I was just this teenager.'' She goes on to say 
that ``I was 16. I should've been checked in by a nurse 
counselor, offered some type of wraparound services. Instead, 
little to no services were provided to me.''
    Both these stories express how attention has been spent 
detaining young victims. Yes, necessary advancements have been 
made nationwide, especially in criminalizing traffickers and 
pimps, but there is so much more to be done in regard to 
fighting demand and providing alternative gender-specific and 
trauma informed services to children rather than detention.
    Detention just does not equal prevention. If we continue to 
lock up victims as we are now, they will not get services that 
they need. Rather than detention, we should be trying to 
meaningfully engage the young person in self-exploration 
activities that promote healthy self-esteem. Locking up victims 
does not help or prevent them from being exploited.
    But if for some reason a victim is detained, it should be 
ensured that they receive trauma-informed therapeutic services 
through counseling and other means while they are in custody, 
or preferably through a community-based program. Alternatives 
to detention for these youth should be instituted.
    Then later, after care programs, separate from probation, 
should be instituted that are non-incriminating and strength 
based to assist with educational, vocational, and self-
exploration needs. Giving them opportunity to self-explore 
gives them power and healthy self-esteem, which is necessary in 
helping survivors rebuild their lives.
    In addition, organizations and governing bodies serving 
this population should at minimum have one survivor on staff to 
help navigate and advise on effective practices. By expanding 
and providing access to programs like the Family Justice 
Center, alternative facilities can house survivor advocates who 
can be present from the initial point of contact with the 
victim.
    And that is why bills like the Justice for Victims of 
Trafficking Act are so important because it not only provides 
alternatives to detention and trauma-informed services for 
youth, but it finally goes after the buyers of child sex.
    Importantly, more must be done to focus on the root cause 
of the issue, that people are buying children for sexual 
purposes. This is not prostitution, and it should never be 
referred to as such. This is child rape, and those who purchase 
these children for sex should be viewed and punished as child 
rapists. Buyers should not get away with it as they do every 
day as of now. Just as it is expressed that it not okay to sell 
children in our country, we need to make it clear that it is 
not okay to buy them either.
    It is my hope today that the Federal Government can 
acknowledge your influential role in helping to end the demand 
for sex with minors by prioritizing and aiding investigation 
and prosecution of buyers, and to help ensure that survivors 
are getting more access to the services that they desperately 
need.
    I would like to thank the Human Rights Project for Girls, 
the Subcommittee, and the audience for taking the time to 
receive my contributions. And thank you to all who work on 
behalf of our Nation's most vulnerable children.
    [The prepared statement of Ms. Ortiz Walker Pettigrew 
follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                               __________
    Mr. Sensenbrenner. Thank you.
    Corporal Heid?

           TESTIMONY OF CHRISTOPHER HEID, CORPORAL, 
           CHILD RECOVERY UNIT, MARYLAND STATE POLICE

    Mr. Heid. Good morning. Mr. Chairman and Members of the 
Committee, I would just like to say on behalf of the Maryland 
State Police what an honor it is to be here before you today. I 
would also like to say thank you to Ms. Ortiz Walker Pettigrew 
for being here to share her story as a survivor.
    The Maryland State Police Child Recovery Unit's primary 
responsibility is missing and abducted children. One of the 
missions is to assist local, State, and Federal agencies with 
the most critical cases or with a nexus to Maryland. Our unit 
works closely with the National Center for Missing and 
Exploited Children to post information about missing children 
and actively investigates cases of missing and exploited 
children.
    Since 2011, our unit has taken a more active role in human 
trafficking investigations in the State. Unlike most vice 
units, our unit focuses all of our attention on locating 
juvenile victims of human trafficking. The two troopers that 
are in the unit are part of the FBI's Child Exploitation Task 
Force, and the task force provides an integral part in the 
investigation by providing us with additional funding and 
manpower.
    Our unit treats every girl as a victim. Our unit is not 
interested in arresting the girls in prostitution. The goals of 
our unit is to locate juvenile victims, offer assistance to 
adult victims, and to arrest and prosecute the traffickers and 
pimps.
    Our unit works hard at building and maintaining a working 
relationship with the local non-government organizations that 
provide resources to victims of human trafficking. The unit has 
found that these resources provide valuable assets, most 
importantly to the victim, but also by being an advocate for 
the victims and their families. There are times when the Child 
Recovery Unit has reached out to these groups to locate 
placement for homeless children or children who might need 
placement for just a period of time.
    Additionally, our unit has worked with the Maryland 
Department of Juvenile Justice and the local non-government 
organization, Turnaround, to identify possible victims of 
juvenile sex trafficking. This is accomplished by screening 
children within our local juvenile detention facilities.
    Victim service is a fundamental part of our unit. Once a 
child victim is located, we work hard to establish and build a 
rapport with those victims. Whether it is having lunch with a 
child in placement or making a phone call to another victim, 
our unit tries hard to maintain contact with all victims, 
especially throughout the judicial process. The unit has also 
had success in keeping contact with adult victims who have come 
forward on occasion and provided information on additional 
victims or traffickers down the line that we were able to 
follow up on.
    Since 2011, our unit, with the assistance of the FBI Task 
Force, has made contact with over 300 girls involved in 
prostitution. These contacts resulted in children being 
rescued, victims getting assistance, and traffickers being 
arrested. In 2013 alone, our unit made contact with 184 girls, 
of which 11 were juveniles.
    When conducting human trafficking investigations, it is 
essential to cooperate with outside organizations. Our unit 
receives assistance from Backpage.com, which is primarily the 
main area that these girls are posting ads. Backpage actually 
is very cooperative with us in providing quick responses to 
subpoenas, and they do act immediately to assist us with 
juvenile human trafficking investigations.
    While speaking with traffickers in Maryland, it is apparent 
that there is a concern in their world of this task force. It 
has been said by several traffickers that they are careful to 
not use juveniles because of the stiff Federal penalties that 
apply. With that being said, the penalties for trafficking of 
adults are not as severe. While we are making significant 
strides in Maryland, there is still so much more than can be 
done.
    A need in Maryland, and presumably nationwide, is for more 
training for the initial responders to missing child cases and 
human trafficking or prostitution investigations. A good amount 
of our missing child cases end as a recovery at a hotel. There 
are various clues that can be found that point to human 
trafficking that probably are not very obvious to the 
responding officer. As human trafficking cases increase, so, 
too, should training to identify these trends.
    In the 3 plus years that the Maryland State Police Child 
Recovery Unit has been investigating human trafficking cases, 
we have come a long way, but clearly there is still much 
further to go. Thank you.
    [The prepared statement of Mr. Heid follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. Thank you, Corporal.
    Judge Groman?

 TESTIMONY OF THE HONORABLE DONNA QUIGLEY GROMAN, SUPERVISING 
   JUDGE, KENYON JUVENILE JUSTICE CENTER, LOS ANGELES COUNTY 
                   JUVENILE DELINQUENCY COURT

    Judge Groman. Good morning, Chairman Sensenbrenner, Ranking 
Member Conyers, Ranking Member Scott, Committee and 
Subcommittee Members. Thank you for inviting me to testify 
today. My name is Donna Quigley Groman, and I am the site judge 
for the Compton Juvenile Delinquency Court in the County of Los 
Angeles. I am here today on behalf of the National Council of 
Juvenile and Family Court Judges, which is one of the Nation's 
oldest and largest judicial membership organizations serving 
judges and other professionals in the juvenile and family 
justice system.
    Our juvenile court system is confronted by the crisis of 
domestic sex trafficking. I have been working on this issue 
locally and nationally since 2010, and have assisted in 
creating Los Angeles County's collaborative court, the STAR 
court, which is a court dedicated to youth charged with 
prostitution related crimes.
    The children arrested for prostitution related offenses 
have come via several paths. They may have been coerced or 
lured by gangs. They may have run away from abusive foster care 
placements or were recruited from group homes and coerced into 
sexual exploitation. Some may be lesbian/gay/bisexual/
transgender youth who have fled unaccepting homes or have been 
thrown out of unaccepting homes. Some are trafficked by a 
family member or enter into a relationship with a pimp because 
of challenges encountered in their own homes. What many of 
these youth have in common is a history of child sexual abuse, 
early childhood trauma, and involvement in the child welfare 
system.
    These youth are not criminals. They are children who are 
being abused by sex traffickers. They deserve the same 
protections and resources to which child victims of sexual or 
child victims of physical abuse or neglect are entitled.
    Child victims of sexual abuse are comforted by assurances 
that they are not responsible for the abuse. Child victims of 
commercial sexual exploitation deserve the same assurances. The 
criminalization of commercial exploitation of children holds 
these children responsible for not preventing their 
exploitation. Our society should not punish these young victims 
of crime who as children are legally incapable of consenting to 
sex acts. These children are desperately in need of safe 
housing, food, clothing, other basic necessities, counseling, 
medical care, mental health services, and to be reconnected 
with education.
    Traffickers are known to specifically target vulnerable 
foster youth. Approximately 1.6 million children run away from 
home every year in the United States. These children are at 
risk of child sexual exploitation due to their mental, 
physical, and financial vulnerability. Moreover, trafficking 
takes a disproportionately heavier toll on minority youth.
    In 39 States across this Nation, youth who are victims of 
commercial sexual exploitation face criminal charges. The 
dangers of incarceration, which include exposure to criminally 
sophisticated youth, the attachment of the stigma of being 
labeled a criminal, potential sexual and physical abuse while 
in custody, are cruel responses to a social problem. The mere 
exposure to the juvenile justice system leads to poor 
educational outcomes, including dropout and a much higher 
chance of leading a criminal lifestyle as an adult.
    The National Council of Juvenile and Family Court judges 
opposes the criminalization of victims of child sexual 
exploitation and supports development and implementation of 
humane and appropriate laws and policies that are in line with 
the Federal definition of a child victim of human trafficking. 
The National Council promotes the development of specialized 
services and resources for child victims, including the 
development of non-detention triage facilities and specialized 
placement options which are equipped to effectively address the 
unique trauma suffered by victims of child trafficking.
    The National Council is further dedicated to promoting the 
exercise of judicial leadership to convene local stakeholder 
and community groups in an effort to improve and enhance system 
responses to the needs of child victims of sex trafficking. The 
National Council is developing a curriculum for juvenile and 
family courts and will make this training accessible to judges 
around the country.
    Judicial education is underfunded and legislation that 
includes funding should consider judicial education as a 
purpose area in order to make change happen around the country.
    Thank you.
    [The prepared statement of Judge Groman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    


                               __________
    Mr. Sensenbrenner. Thank you very much, Judge. The Chair 
recognizes himself for 5 minutes.
    First of all, let me say that this is probably one of the 
most interesting hearings that we have had before the 
Subcommittee in my time as Chair of it. Every one of you has 
spoken to this problem from a different perspective, and what I 
can say is that we really need to adopt an all of the above 
type response to this.
    A lot of this, of course, will require changes in State 
legislation, particularly in the 39 States that still 
criminalize child prostitution. And I think we have to make a 
big difference in the law between child prostitution and adult 
prostitution. I do not think that adult prostitutes who legally 
know what they are doing, should have the same type of sympathy 
as the child prostitutes.
    So I think that we should look at this from both a supply 
standpoint and a demand standpoint. We do need to deal with 
getting at the traffickers and getting at the pimps. We also 
need to get at the johns or the customers, those who are 
exploiting these children for their own pleasure. And I think 
that that is going to be more of an activity that law 
enforcement is going to have to be more engaged in. And when we 
look at the demand side, the customers, I think, are going to 
have to be zeroed in, too.
    When we are talking about victims, I agree with you, Judge 
and Ms. Ortiz Walker Pettigrew, that we have to treat juvenile 
victims differently. And I think one of the reasons why we have 
to treat them differently is we need to encourage them to 
testify against those who have enslaved them. And having their 
first contact with law enforcement be something that is more 
humane and less daunting I think will encourage more credible 
testimony for when a john or a trafficker ends up appearing in 
a criminal court. And having these young victims testify in 
front of a jury, it would be very, very hard if that testimony 
sounds sincere and from the heart and wanting to get at this 
problem and get rid of it. And, as a result I think that a 
triage rather than a juvenile justice response, at least 
immediately, I think is necessary.
    Now, I would like to ask in my remaining time, Ms. Ortiz 
Walker Pettigrew, if you think that better reporting of 
children who go missing right from the get-go is essential to 
trying to stop this trade. I was one of those that put together 
the Missing Children's Act back in 1982 and putting in statute 
amber alerts. But in order for either of those activities to 
become active, there has to be a report that ends up getting 
put out on the Internet, may be an amber alert issue. How 
critical do you think that doing that would be?
    Ms. Ortiz Walker Pettigrew. Well, I definitely want to say 
thank you for bringing up that perspective. I think it is very 
critical in understanding specifically, as Honorable Groman has 
expressed, a lot of the young people come from child welfare 
system and things of that sort.
    From my experience and from my experience both as a young 
person living in the system and as a professional, there are 
different things that happen. Oftentimes specifically in group 
homes, young people are not reported missing based on the fear 
that the funding will get cut off and then they will return 
again, and then they will have to go through the process all 
over again.
    So I definitely think that that is something that we do 
need to highlight as far as specifically young people who come 
from systems because I can say from my knowledge, understanding 
the lack of, I guess, attention that is put on young foster 
children, that when they go missing the exploiters actually 
rely on that as a safety guard. They know that nobody is 
looking for them, that there are not posters out here looking 
for these young children. And so, they know that they can 
continue to get away with this.
    And it is sad that this already vulnerable population of 
young people in child welfare do not get the special attention 
that they need when they do come up missing. And, I think that 
we have heard from different perspectives and looking in our 
history in criminal crimes and all that.
    Foster children are very vulnerable. And so, making sure 
that we alert people when they go missing, making sure that it 
is public, making sure that we do have an opportunity to give 
amber alerts for these young people. Just sadly enough, I can 
say that that does not seem the case as of now.
    Mr. Sensenbrenner. Thank you very much. My time has 
expired. The gentleman from Virginia, Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Harpster, can you 
tell us what charges can be brought against a 40-year-old who 
pays for sex with a 14-year-old?
    Mr. Harpster. We could use State or local laws through our 
task forces, or we could use 1591 sex trafficking, a Federal 
offense that carries a minimum mandatory.
    Mr. Scott. Of what?
    Mr. Harpster. Pardon me, sir?
    Mr. Scott. Mandatory minimum of what?
    Mr. Harpster. So under 14 would be 15 years. Between 14 and 
17 would be a 10-year minimum mandatory.
    Mr. Scott. Are fines involved?
    Mr. Harpster. There are, sir, yes.
    Mr. Scott. Now, when you catch someone in this situation, 
what charges are actually brought?
    Mr. Harpster. For the customers, sir, in what you 
described?
    Mr. Scott. Right.
    Mr. Harpster. We would hope that 1591 would be brought, and 
that can happen. We work in liaison with our State and local--
--
    Mr. Scott. Wait a minute. When you have some of these 
roundups like you had at the Super Bowl, what charges are 
brought?
    Mr. Harpster. Correct. So let us take the last operation 
cross country where we had 151 pimps that were arrested. We 
would work with local----
    Mr. Scott. Not pimps, johns.
    Mr. Harpster. Johns. So that number I do not have here 
right now, sir. But I will tell you this, that when we are 
working with or State and locals, we look at the johns, at the 
customers, and we choose the best mechanism to remove them from 
the street, because the Federals always come in later down the 
line. So when we are doing a criminal enterprise, that john may 
be included.
    Mr. Scott. You have a roundup. It is kind of hard to have a 
prosecution without a john involved. When you have a 
prosecution, what charges are brought against the johns?
    Mr. Harpster. As I said earlier, sir, working with our 
State and local, we would look at the johns for what the best 
charges are that time. The initiative when we are out there, 
our number one----
    Mr. Scott. What charges are typically brought?
    Mr. Harpster. It would be a pandering charge or a 
prostitution charge, soliciting. If they cross State lines, we 
do a Mann Act.
    Mr. Scott. What happened to that 15-year mandatory minimum 
case?
    Mr. Harpster. If it is going to be----
    Mr. Scott. Have you ever brought a 15-year mandatory 
minimum charge against a john?
    Mr. Harpster. Yes, sir.
    Mr. Scott. How often does that happen?
    Mr. Harpster. Just last week we had a plead out in Sioux 
Falls where we arrested nine johns for soliciting under age 
victims, and the last one did plead. There are eight more to 
go. Just the week before that, we had a reverse operation in 
Savannah where they were also charged.
    Mr. Scott. And what did the one plead guilty to?
    Mr. Harpster. 1591, sir. It was a 15-year mandatory.
    Mr. Scott. And so, we can expect when these roundups occur 
that the johns will be charged with crimes that carry 10- to 
15-year mandatory minimum sentences.
    Mr. Harpster. When the facts are present and working with 
the DoJ, U.S. attorney's office, and the rest of the 
prosecutors, we could expect that.
    Mr. Scott. You get these websites that have people that are 
apparently soliciting. Do you ever do stings to catch johns?
    Mr. Harpster. Yes, sir.
    Mr. Scott. And then what do you charge them with?
    Mr. Harpster. The 1591. If we were doing it from a Federal 
perspective, we would charge the 1591. The one in Sioux Falls--
--
    Mr. Scott. There is a TV program that that I am sure you 
are aware of.
    Mr. Harpster. Yes, sir.
    Mr. Scott. And the end shows these guys getting, like, 3 
months and 6 months, maybe as much as a year. What happened to 
the 15-year mandatory minimum charge?
    Mr. Harpster. I am not sure about the TV show if the 
Federals were involved at that level, sir.
    Mr. Scott. Well, are you doing these?
    Mr. Harpster. We have issues with that kind of TV show, so 
that is kind of----
    Mr. Scott. I mean, not the TV show, but, I mean, do you 
post stuff or chase down and try to catch people?
    Mr. Harpster. Yes. During reverse sting operations, we 
would use the Internet or postings to attract customers for 
under age----
    Mr. Scott. And then people who respond to these postings, 
what can they expect at the end?
    Mr. Harpster. They will hopefully expect to be prosecuted. 
That is where we are at. With the sting operators that are 
aimed at the johns, with our Innocence Lost Initiative, we are 
aimed at recovering victims.
    Mr. Scott. Judge Groman, how often do you see johns being 
hauled into court on charges that carry 10- to 15-year 
mandatory minimums?
    Judge Groman. I am actually in a juvenile court assignment, 
so I do not see adults being prosecuted, but I could speak in 
general terms. In Los Angeles, those prosecutions are very few 
and far between.
    Mr. Scott. What would it take, Mr. Harpster, to get you to 
bring these charges more routinely against johns? It would 
have, it would appear, to have a significant deterrent effect 
if people thought they were looking at 10 to 15 years in prison 
for soliciting sex with teenagers.
    Mr. Harpster. It would require from a national level for us 
to redirect our resources. Currently we are aimed at recovering 
victims and getting those victims the services that they need. 
We also do sting operations, but it is not our number one 
priority at this time.
    So we can, when appropriate, aim our resources at reverse 
sting operations and arrest those johns and work in 
coordination with State and locals. We hope that when we go and 
we give training that they will carry on that type of 
opportunity outside of the task forces and the Federal 
initiatives that we run.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Mr. Chairman, I want 
to thank first you and the Ranking Member for holding this 
hearing. Thank all of you for being here.
    Director Harpster, I know that the 2005 Trafficking Victims 
Protection Reauthorization Act required a number of studies, 
and I was wondering if you could just help us with the accuracy 
of the data that you have to do those studies. And if you do 
not have the accuracy, is partial information enough to get you 
the kind of input that you need?
    Mr. Harpster. So the issue we currently are dealing with is 
the issue of accurate data. Lots of numbers between 100,000 to 
200,000 of child victims out there. There are 50 different 
States that handle victims 50 different ways. In the State of 
New Jersey, for example, they will not even write reports on 
child victims for fear that it would basically re-victimize 
that person. That is an issue for us when we are trying to 
collect data.
    Through our task forces and through our training with the 
State and locals, we have created a NCIC database, which is the 
only database of its kind. And it is specifically aimed at 
collecting those non-arrest situations, which would not be 
reported in NCIC.
    So with hopefully the database coming up, we use that 
through our intelligence, through other NGOs and social 
services where they have that information where they actually 
see those people in their facilities, or see those people come 
through for services. We can use those numbers to come to a 
better guestimate.
    Mr. Forbes. Okay. Mr. Chairman, I would like to defer the 
balance of my time to Judge Poe from Texas with the Chair's 
permission.
    Mr. Sensenbrenner. Without objection, the gentleman from 
Texas is recognized.
    Mr. Poe. I thank the gentleman from Virginia for yielding 
and the Chairman for holding this hearing. And thank all four 
of you for being here. I think it is interesting how you are 
seated. We have the law on one end. We have the judge on the 
other end. We have the victim sitting in between the police. I 
think that is good. It means a lot.
    To continue what you said, basically should be our focus. 
The kids are not for sale, period, under any circumstances 
ever. There are three people, if you will, in this tragedy, in 
this crime. There is a victim. On the other end is the slave 
master, trafficker, and then there is also the demand. I do not 
call those people johns because, you know, John was a good guy 
in the Bible. I call them child abusers because that is what 
they are, child abusers. I would like to address each one of 
those and get some answers from you on some specific questions 
in the remaining time.
    Starting with the children, how is it possible that we 
could have a phrase of ``juvenile prostitution?'' How could 
that exist? Under the law, a child cannot consent to sex. It is 
not prostitution to me. Judge, can you help me out with that? 
Is that a term that we should not be using anymore, ``juvenile 
prostitution?"
    Judge Groman. I think that is an awful term. You know, the 
problem is that sometimes we see children in our juvenile court 
that come in with other charges, so they are not always being 
charged with that unspeakable term. So they are coming in on 
charges of petty theft, or battery, or criminal threats. There 
are a whole host of different charges that they come to our 
court with.
    Mr. Poe. Reclaiming my time, I only have a couple of 
minutes. But the phrase ``child prostitution,'' as a jurist do 
you think that is a phrase we should not be using under the 
law?
    Judge Groman. Absolutely.
    Mr. Poe. We have in this country, I understand, through 
Shared Hope, there are 300 beds for children who are 
trafficked, 300 beds, child traffic victims. On the other hand, 
according to the SPCA, we have 5,000 shelters for animals. Not 
quarreling with that. I have got three Dalmatians. I got one of 
them from Dalmatian Rescue. But I think we need to focus on the 
victim first. Rescue the victim and find a place to house them.
    We have two different standards, international victims that 
come into the United States that are trafficked here and 
domestic victims moved from across the country. International 
victims, I understand, can apply for certification under HHS 
and receive certain services that a domestic trafficked victim 
cannot receive and cannot receive that certification.
    Do you think, Judge, we ought to change that so that 
victims can be treated alike whether they are international or 
domestic?
    Judge Groman. There is an absolute need for safe housing 
for these young people. And absolutely there should be no 
discrepancy whether they are internationally trafficked or 
domestically trafficked.
    Mr. Poe. Thank you.
    Mr. Sensenbrenner. The gentleman's time has expired.
    The gentleman from Michigan, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Sensenbrenner. I begin by 
commending Ms. Walker Pettigrew for her insight and actual 
courage of coming forward, putting a face on this problem, and 
then going on to become a professional in the field yourself. I 
am very respectful of what you have done in bringing this 
subject forward.
    Now, Corporal Heid, police officer, how often are johns 
arrested and charged, and how often are they let go from just 
your general experience?
    Mr. Heid. With what we do in my own unit, the Maryland 
State Police Child Recovery Unit, we are only going after 
looking for young girls. We are out there looking for the 
missing girls, the abducted children, and the juvenile victims.
    For instance, if we are working a case and we get wind that 
a 17-year-old girl might be missing and she might be involved 
in prostitution, we are there to recover that girl. We are not 
going to sit and wait and watch another john walk into that 
room. So our focus is solely to get that girl out. If we can 
build a case down the line, we will build a case down the line. 
But we are not going to sit and wait and watch another john 
walk into a room to re-victimize a young lady.
    To answer your question, we do not arrest johns, the 
Maryland State Police. We take part with the FBI if they do a 
joint operation, and we do a reversal sting where we are 
putting out ads, bringing johns in. I have been a part of that.
    Mr. Conyers. Okay. Let me ask you, what is the race of most 
of most johns, and what is the race for most victims?
    Mr. Heid. I think in my experience in Maryland, most of the 
johns are White males, and there is a mixture of the females, 
the girls--Black, White--in Maryland.
    Mr. Conyers. I wanted to get the color question in here 
because I think if we do not, we will not get a real clear 
picture. Would you add anything to this, Ms. Pettigrew?
    Ms. Ortiz Walker Pettigrew. Just as I said in my testimony, 
I believe this as to be true in my understanding or my 
knowledge, again, as a person who has experienced it as well as 
a professional working with other young victims.
    Mr. Conyers. Now, you were, in fact, victimized again when 
you were arrested and interrogated. What thoughts or proposals 
would you make to law enforcement to help them treat victims 
more appropriately?
    Ms. Ortiz Walker Pettigrew. I very much thank you for 
asking that question. I definitely think that, one, that young 
people should have a survivor advocate with them present any 
time that they are interrogated or questioned as a witness 
because I think that there is something to be said as far as 
having a supporter who has been a survivor. But even separate 
from that, even if it cannot be someone who has the experience 
of a survivor, someone who is trained in understanding the 
trauma and the situational circumstances of survivors who can 
stand in and be a survivor advocate during the interrogation 
and the questioning. I just do not see that happening all too 
often in a nationwide perspective.
    Mr. Conyers. And in your experience and those who you have 
mentored, what alternatives to detention are most appropriate 
for victims?
    Ms. Ortiz Walker Pettigrew. I definitely think when we talk 
about, you know, detaining, like I said, I do not think 
detention is prevention. I think that the alternative to 
detention could really be looking into community-based 
programs. And basically instead of sentencing young people to 
serve a certain amount of time in detention, we can start to 
sentence them to engage in self-exploration activities and 
things of that sort so that they have the ability to really 
gain the services and the skills needed to make the best out of 
their life and to fight the pressures in the situations that 
are coming around them in their environment.
    Mr. Conyers. Thank you so much, and I commend all of the 
witnesses, Mr. Chairman, for their contributions.
    Mr. Sensenbrenner. Yes, thank you. The gentleman's time has 
expired.
    The gentleman from Virginia, Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. Mr. Harpster, can 
you explain how the FBI works in conjunction with State and 
local law enforcement to investigate and prosecute traffickers? 
What is the Federal role in the crime, and are you more focused 
on broader criminal enterprises?
    Mr. Harpster. So if I can start with the middle question, 
what is the Federal role, we see our role as bringing people 
together. So with our Federal funding that we have, we like to 
go out and create task forces. We have 69 child exploitation 
task forces which have almost a thousand members from 400 
different agencies.
    With these task forces, we have the ability to go after the 
issue on the local level and the national level. So our task 
forces made up of local detectives and agents will work a case 
in California and they will address that issue for that area of 
responsibility.
    Mr. Goodlatte. Let me ask you about that. Is the FBI only 
involved when the trafficker crosses State lines, or do you 
work with State and local law enforcement to combat intra-State 
trafficking as well?
    Mr. Harpster. Yes, we work on intra-State trafficking. For 
us, the trafficker does not have to leave the State to be 
charged with a sex trafficking offense.
    Mr. Goodlatte. Thank you. Good. What is the FBI doing to 
combat the online promotion of minor sex trafficking?
    Mr. Harpster. It is an issue we are aware of, an issue we 
are working on. If you bring up Backpage, we have identified 
over 100 such sites as those that will promote child sex 
trafficking, and we use technology to thwart that as well. So 
not only do we look at and monitor them, at the same time our 
intelligence units will go out there around special events 
where we can expect an increase in online posting. We will 
obviously scrub harder those sites to get those leads.
    Mr. Goodlatte. Ms. Pettigrew, you have been working with 
victims of minor sex trafficking for a number of years now. 
Thank you for that good work. What have you learned from this 
process that might help Congress understand the problem, and 
what can we do to better protect and help victims?
    Ms. Ortiz Walker Pettigrew. Again, a lot of what I said in 
my testimony is going to answer that question. I think 
definitely the first thing that I noticed is that we cannot 
just remove young people and expect the problem to go away. So 
there are a lot of amazing opportunities and services that are 
provided that allow young people to live in like the country.
    I think that those are amazing ideas and amazing programs. 
Yet the problem is that they do not allow young people to re-
assimilate into the community and environments that first got 
them in the position in the first place. And so, I think that 
we need to do more in regards to when we are working in 
residential treatment with young people and young victims in 
balancing their re-assimilation into their mainstream 
community.
    Also I think that, again, what I stated earlier is that 
really we have to give them power. We have to allow them to 
understand the law is on their side to be able to assist them 
with facing their exploiter and things of that sort. We also 
have to let them know that there are services to help them, but 
we first and foremost need to understand that we cannot help 
them if we are still labeling them as prostitutes. And 
secondly, we have to understand that it really is going to take 
them understanding that they have capabilities to be able to 
fight back.
    Mr. Goodlatte. Good. Let me go on to Judge Groman. Much of 
the discussion regarding minor sex trafficking focuses on 
pimps, ignoring that this is a marketplace equally fueled by 
the adults that purchase children for sex. Why do States treat 
minor victims as criminals or at least delinquents, and does 
this not imply that there is some moral equivalence between 
minors and the adults that exploit them?
    Judge Groman. With regard to the criminalization, I think 
one of the reasons that criminal laws are still on the books is 
because the juvenile justice system has been the only system 
that has been working with these young people. And so, there is 
a great deal of concern if prostitution is decriminalized, that 
there is not going to be a child welfare system that is 
equipped and prepared to take over the role of working with 
these young people. So I think it is very, very important that 
we place the responsibility on child welfare to work with these 
young people.
    Some of the laws in States do not allow child welfare to 
intervene where the trafficker or the customer is not apparent, 
or other caretaker. So when you are involved with third persons 
who are trafficking young people, child welfare laws or child 
welfare agencies do not believe that they have the ability to 
intervene in that situation. And so, that needs to be changed.
    Child welfare agencies should be the primary agency 
responsible so that juvenile justice does not have to continue 
to provide the services and support for these young people.
    Mr. Goodlatte. Thank you. Thank you, Mr. Chairman.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentlewoman from California, Ms. Bass.
    Ms. Bass. I will yield 30 seconds of my time to the 
Chairman.
    Mr. Scott. Thank you.
    Ms. Bass. The Ranking Member, I am sorry.
    Mr. Scott. Mr. Harpster, you mentioned 1591. That is 
trafficking. Since minors cannot consent, do you ever charge 
them with just rape?
    Mr. Harpster. I do not have the----
    Mr. Scott. Would you do that in the future?
    Mr. Harpster. I have to get back to you on that. I am 
trying to look through the elements of 1591 in my head, and I 
do not want to say or assume it is in there that the sexual 
contact is part of that offense. I am not sure on that, sir. I 
will get back to you on that one.
    Mr. Scott. Well, I mean, since a minor cannot consent, it 
ought to be a straight rape charge, and we would like to start 
bringing those. If you could get back to us. Thank you. I thank 
the gentlelady.
    [The information referred to follows:]
    Ms. Bass. Thank you very much. Well, first of all, I want 
to thank all of the witnesses for their time and their 
expertise and dedication to this issue. I have to tell you, I 
have seen Ms. Ortiz Walker Pettigrew testify a number of times. 
And the point that she makes consistently, which is the child 
welfare system really prepared her to be a victim. And the 
child welfare system is our responsibility, so we have to 
repair that.
    Judge, I think you eloquently said that we currently hold 
children responsible for not preventing their own exploitation. 
I wanted to ask Corporal Heid, when you are recovering the 
girls, do you keep stats on the ones that are connected to the 
child welfare system? Do you have stats on that?
    Mr. Heid. Yes. We would have that at our office, yes.
    Ms. Bass. And do you know what they are off hand?
    Mr. Heid. I would say the vast majority, I mean, percentage 
wise, probably 90 plus percent we do get assistance. There are 
times depending on which county we are in that we----
    Ms. Bass. No, they are from the child welfare system. Is 
that what you mean?
    Mr. Heid. I am sorry. I thought you meant referring them 
after the fact.
    Ms. Bass. No, no, no, no. I am asking how many of the girls 
that you recover were foster kids.
    Mr. Heid. I am sorry. We have had several. The majority of 
them are not.
    Ms. Bass. Do you track that data?
    Mr. Heid. Yes. Yes.
    Ms. Bass. Okay. Can you get back to me and let me know?
    Mr. Heid. Sure.
    [The information referred to follows:]
    Ms. Bass. Because I am concerned in talking to the FBI in 
Los Angeles, they know it is 40 percent, but they think that is 
way under reported. And so, I think one of the things that we 
need to do is keep better data on that because that, again, is 
our system. I mean, you know, when those kids are put in child 
welfare, we are responsible for them. We are the parent.
    Mr. Heid. Correct.
    Ms. Bass. You know, I really do think that we have to 
address the language. It kills me to hear ``johns'' and 
``customers'' used for child molesters. And I think as long as 
we use that language, we normalize it in a way. And the only 
way we are going to break past that is if we label it for what 
it is. And also the term ``prostitution,'' which has been said 
a number of times. We have to change that language in order to 
change our mentality.
    Mr. Harpster, I wanted to know when you were dealing in law 
enforcement agencies, how difficult is it for you to get them 
to see the girls as victims and not as criminals?
    Mr. Harpster. It is an issue we are dealing with. We have 
had relationships with the National Association of Chiefs of 
Police where we are actually developing roll call videos for 
them. We are doing training with the national school resource 
officers as well to get them to be able to identify them as 
victims as opposed to just people on the----
    Ms. Bass. Well, and I want to know if you think that there 
is more that we can do. I am very proud to be a co-sponsor with 
Judge Poe and his efforts in his legislation, and also on the 
Ways and Means Committee, Subcommittee Chairman Reichert. We 
have legislation. I have legislation that I am working on 
specifically around the child welfare issue.
    And, Judge, I would just ask you, child welfare has 
difficulty with child molestation. If somebody beats up a kid, 
is that considered child abuse?
    Judge Groman. Well, it is child abuse, but whether child 
welfare can intervene really depends on whether the abuser is a 
parent or caretaker. And if not, then they do not have the 
ability under the current state of laws, at least in the State 
of California, to intervene.
    Ms. Bass. Okay. Ms. Ortiz Walker Pettigrew, I mean, your 
description of being incarcerated was just heartbreaking 
frankly. One problem that I have heard you say before and other 
people is that when girls are first brought in, it is difficult 
for them to break away from the pimp. And so, when you were 
saying that you thought community-based services are needed, do 
you think it is ever appropriate to hold a girl against her 
will so that she can at least have a few days to break out of 
the psychology?
    Ms. Ortiz Walker Pettigrew. I can definitely see that 
perspective, and I think it definitely is back onto an 
individual based situation. If there is no other, if it is the 
last resort, and you are doing it in the efforts of just, 
again, trying to keep the young person safe. I mean, again, our 
options are limited.
    I do think that we need to more mindful in holding young 
people against their will because all we are doing is replacing 
what the exploiter or the pimp does. So then it puts us in the 
same proximity of the relationship that we have with that young 
person as that pimp does.
    And so, just understanding that we need to extend these 
services. We need to extend these opportunities for these 
programs because they need to build connections and 
relationships elsewhere outside of the ones that they have with 
their pimp because oftentimes that is the strongest 
relationship in their lives.
    Mr. Sensenbrenner. The gentlewoman's time has expired.
    The gentleman from Alabama, Mr. Bachus.
    Mr. Bachus. Thank you. Ms. Ortiz, she mentioned----
    Mr. Sensenbrenner. Could the gentleman turn his----
    Mr. Bachus. I am sorry. Ms. Ortiz Pettigrew Walker, she 
mentioned having to shower with male guards watching her. 
Recently in Alabama we had a case with similar charges in our 
women's prisons that that was going on. Is that a common 
occurrence?
    Judge Groman. Well, when you are talking about detention in 
a penal facility, yes, it is a common occurrence. And I think 
that is probably the biggest problem here is we are detaining 
children in penal facilities that are meant for young people 
who are a danger to the community. And so, those are all things 
that are inherent in being in a penal facility where you lose 
your privacy, danger of being abused in the custody arena.
    So I think where we really have to work with these young 
people is if they are going to be in a secure setting, it 
should not be a penal setting. It should be more of a hospital 
therapeutic setting just as we have children who are dangers to 
themselves because of mental health concerns. Those are the 
types of settings that should be used in a secure manner and 
not penal facilities.
    Mr. Bachus. Now, what about adult women? I mean, you know, 
should they be exposed to that? I mean, they are prisoners, 
but, I mean, I guess they lose their civil rights.
    Judge Groman. I just think that is the nature of custodial 
facilities for people who are being held on criminal charges.
    Mr. Bachus. Okay. Let me ask Acting Director Harpster, FBI, 
how many total agents are there investigating crime? Just give 
me a ballpark figure.
    Mr. Harpster. I am sorry, sir?
    Mr. Bachus. Total agents in the field.
    Mr. Harpster. Total agents? Currently we are about a little 
over 400. That is not including task force members.
    Mr. Bachus. Now, you are talking about in your division?
    Mr. Harpster. I am talking about the FBI as a whole.
    Mr. Bachus. As a whole.
    Mr. Harpster. As a whole.
    Mr. Bachus. Four hundred?
    Mr. Harpster. That is the agents, 400. Total number is 
about 900. We have got about 500 task force officers. That is a 
rough estimate, but about that.
    Mr. Bachus. You are talking about all Federal agents 
nationwide?
    Mr. Harpster. I am talking about FBI, sir.
    Mr. Bachus. FBI, that is what I am saying. FBI.
    Mr. Harpster. Yes. Yes.
    Mr. Bachus. Okay. I would have just thought it was quite a 
bit more than that.
    Mr. Harpster. The SACs have the ability to, you know, flex 
their, we call it FSL or staffing to a threat. So if there is a 
large incident going on or the threat is high, they can move 
people back and forth.
    Mr. Bachus. Okay. Are there priorities within the FBI? I 
have heard domestic terrorism is a priority. Public corruption 
is a priority. Is there some list of priorities or is there a 
checklist or anything about----
    Mr. Harpster. So the director has made it clear that 
children are his number one priority along with 
counterterrorism. So within our program, we have priorities--
child abductions, child sex trafficking, child pornography 
production and manufacturing. But it is at the top of the list.
    Mr. Bachus. You know, I noticed in a statement by the 
director and actually by an FBI agent in Alabama that the two 
priorities were public corruption and domestic terrorism. You 
know, they did not mention human trafficking, and I do not know 
if that was an oversight or what. But is there any printed 
priority?
    Mr. Harpster. There is. When Director Mueller came in, the 
overall priority would be counterterrorism, and then I 
believe----
    Mr. Bachus. Could you share that information or supply that 
to the Committee?
    Mr. Harpster. Sure, I would be happy to.
    [The information referred to follows:]
    Mr. Bachus. How many agents are devoted to human 
trafficking? Any solely devoted to that?
    Mr. Harpster. Yes, that is a separate branch, so my comment 
would be a guess. But I will include that information for you, 
sir.
    Mr. Bachus. So you are not in that branch?
    Mr. Harpster. That is correct. Human trafficking comes 
under the Civil Rights Section.
    Mr. Bachus. All right. Sexual exploitation, that is your 
branch?
    Mr. Harpster. Correct, sir.
    Mr. Bachus. How many agents are involved in that as their 
sole responsibility?
    Mr. Harpster. Under my program, again that 400 number comes 
in.
    Mr. Bachus. How many?
    Mr. Harpster. Four hundred, sir.
    Mr. Bachus. How many agents are there nationwide in the 
FBI?
    Mr. Harpster. Approximately 12,000, I believe.
    Mr. Bachus. Oh, that was my question when you responded 
with 400. I am sorry. So there are 12,000 agents, but 400 are 
devoted----
    Mr. Harpster. That number will go up and down, but those 
are the ones that are devoted.
    Mr. Bachus. To sexual exploitation.
    Mr. Harpster. And that will change from month to month as 
well.
    Mr. Bachus. Do they do something else other than sexual 
exploitation?
    Mr. Harpster. Those would be the ones who are assigned to 
the Crimes Against Children. So it could----
    Mr. Bachus. Okay, 400 of the 12,000?
    Mr. Harpster. Yes.
    Mr. Bachus. Okay.
    Mr. Sensenbrenner. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman, and thank all of our 
witnesses. As a father of three girls, it breaks my heart to 
hear the testimony and to think that any children would be 
treated as you have, Ms. Pettigrew. Having been a judge, I have 
sentenced people a lot longer than 15 years for doing what has 
been done.
    I applaud the efforts. I think we should do more. I think 
that my friend on the other side, Ms. Bass, is right. We ought 
to properly characterize who are the victims and who are the 
perps.
    But I want to yield my time to a man that has a bill, Ted 
Poe, at this time for the rest of my time.
    Mr. Poe. I thank the gentleman, Judge Gohmert, for 
yielding. I know how valuable time is when we are in these 
hearings and how you like to ask a lot of questions, so I 
appreciate that a great deal.
    There was a hearing last week in Houston put on the 
Homeland Security. And my friend, Ms. Jackson Lee and Mike 
McCaul hosted that, and I was there. And we learned a lot of 
things, but we learned that Houston, Texas, according to the 
testimony, is the hub of international trafficking into the 
United States, that kids, boys and girls, are smuggled to 
Houston from all over, and they are sent throughout the fruited 
plain. It is a tragedy.
    Director Harpster, I want two numbers. How many people have 
been prosecuted who are in the situation of being the customer 
in a prostitution enterprise, whether it is for rape, or 
whether it is for being a customer? How many have the FBI 
prosecuted in the last year?
    Mr. Harpster. I apologize, sir. I do not have that number 
with me, but I will get it for you.
    Mr. Poe. How many people have the FBI prosecuted who are 
international sex tourism criminals? They go from the United 
States and they go to some other country for sex tourism, and 
it is with a minor. How many of those people have been 
prosecuted in the last year?
    Mr. Harpster. We have a child sex tourism initiative which 
comes under my program.
    Mr. Poe. Just the number. I just want a number.
    Mr. Harpster. Again, I do not want to give you the wrong 
number. I want to give you an accurate one, and I will get to 
that to you. But it is----
    Mr. Poe. Not very many.
    Mr. Harpster. It is all relative, sir.
    Mr. Poe. Not very many. Furnish that to the Chairman and to 
the Ranking Member if you would as the protocol requires under 
the rules.
    If I understand it correctly, in sex tourism, if a person 
goes from the United States to Costa Rica, you have to prove 
their primary purpose for going there to prosecute them was for 
sex tourism. Is that correct?
    [The information referred to follows:]
    Mr. Harpster. No.
    Mr. Poe. So you can go down there on a business operation, 
and then you can be involved with a child and then a person 
could be prosecuted even though their primary purpose was not 
sex tourism, is that correct?
    Mr. Harpster. If the evidence is developed that you either 
had a conspiracy to have sex with that child or have sex with a 
child, that is a chargeable offense.
    Mr. Poe. I understand when I was there, I was told by the 
government and by the shelter that around 80 percent of the 
people going to Costa Rica for sex tourism are from the United 
States. Would you argue with that or not?
    Mr. Harpster. I would not argue with the fact that Costa 
Rica is a destination for child sex trafficking.
    Mr. Poe. Okay. I want to be careful in my numbers because 
sex tourism or prostitution with adults is legal, but it is not 
legal with children in Costa Rica, is that correct?
    Mr. Harpster. In Costa Rica, I believe the age of consent 
is 14 years old.
    Mr. Poe. All right. I think the system, in the remaining 
time, our system I think does fairly well to go after 
traffickers. We are not doing too good with the victim on the 
other end. I want to center on the person in the middle, and 
you are going to get me that number, how many people have been 
prosecuted.
    Congress, in my opinion, needs to send a clear and 
convincing message that the days of boys being boys is over in 
the United States when it comes to sex, child abuse rather, 
with children.
    What about the RICO statute? Have you used the RICO statute 
to go after the child abuser, Mr. Harpster? You will get back 
with me on that.
    Mr. Harpster. I will get with you on that.
    Mr. Poe. Okay.
    Mr. Harpster. I know we do use----
    Mr. Poe. Do you think it is a good idea?
    Mr. Harpster. We use the Child Enterprise Act, which is 
similar to the RICO for conspiracy for both the customer and 
also the pimp as well. So we have used that in that past.
    Mr. Poe. Do you agree with me that we should quit calling 
the child abuser, the guy in the middle, anything but a child 
abuser, rapist, terminology?
    Mr. Harpster. I would concur with you, sir, that, yes, that 
is true.
    Mr. Poe. All right. And, Judge, I want to ask you one last 
question on victims. I think we have talked a little bit about 
victims, not enough. Do you see that there is a whole range of 
services that need to be provided for victims, and one way we 
can do this is when the police capture these traffickers or the 
child abusers, Federal judges are allowed to impose some type 
of fee on them that goes into some kind of fund that eventually 
goes to services, whether it is law enforcement, NGOs, or 
county services? Do you think that is a pretty good idea or 
not?
    Judge Groman. Yes, there are actually a number of States 
that are using those funds for that purpose. Housing is a huge 
priority, and if those funds are used to provide supportive 
housing for these young people, I think that that is very 
important.
    Mr. Sensenbrenner. The time of the gentleman has expired. 
That concludes the questioning by Members of the Subcommittee. 
All time that has been allocated to the Members of the 
Subcommittee who are present has expired.
    So without objection, the Subcommittee hearing is 
adjourned.
    [Whereupon, at 11:25 a.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
